         Office of Inspector General




                                 June 5, 2006

                                 VICTOR BENAVIDES
                                 ACTING MANAGER, ALBUQUERQUE DISTRICT

                                 SUBJECT:       Management Advisory – Las Cruces,
                                                New Mexico Delayed Mail
                                                (Report Number DR-MA-06-001)

                                 This management advisory presents the results of our
                                 review of allegations of delayed mail in Las Cruces, New
                                 Mexico (Project Number 06XS002DR000). The report is in
                                 response to a congressional request the U.S. Postal Service
                                 Office of Inspector General (OIG) received. Our overall
                                 objective was to evaluate allegations of delayed mail in Las
                                 Cruces, New Mexico, and determine whether management
                                 was taking action to correct the situation.

Results in Brief                 Delayed mail existed from May 2005 until at least the time
                                 of our review in the Las Cruces Carrier Annex and the Main
                                 Post Office, causing customer complaints. Further,
                                 management had not taken timely action to correct the
                                 situation as of December 2005. District officials stated the
                                 delayed mail problem was continuing due to turnover of
                                 district management staff, insufficient facility staffing, and
                                 untimely response to recommendations in a management
                                 review. District officials visited Las Cruces during the OIG’s
                                 December visit to address the congressional inquiry and
                                 discuss means to correct the delayed mail problem. District
                                 officials were confident they could correct conditions
                                 associated with delayed mail.
Las Cruces, New Mexico Delayed Mail                                                                      DR-MA-06-001



                                     Even though management has developed plans to correct
                                     the delayed mail problems, we suggest district officials
                                     reduce the likelihood of the condition occurring in the future
                                     by establishing procedures to track and monitor the
                                     implementation of recommendations from management
                                     reviews. We also suggest management evaluate and
                                     respond timely to customer complaints.

                                     Management agreed with our findings and suggestions.
                                     Management established a procedure to track and monitor
                                     the implementation of recommendations from management
                                     reviews and plans to conduct follow up reviews to evaluate
                                     corrective actions. Management also directed all
                                     managers/postmasters to investigate and respond to
                                     customer complaints in a timely manner and established a
                                     central tracking point for congressional inquiries. In addition
                                     to responding to our suggestions, management outlined
                                     specific actions taken to correct the Las Cruces delayed
                                     mail. Management’s comments in their entirety are included
                                     in the appendix.

Background                           In response to a November 2005, congressional inquiry, the
                                     OIG reviewed allegations of delayed and undelivered mail in
                                     Las Cruces, New Mexico. The congressman’s letter
                                     specifically stated delayed mail resulted in businesses
                                     putting stop payments on undelivered, lost, or late checks;
                                     the Department of Labor levying fees for late reports that
                                     were posted on time; the need to reissue employee child
                                     support checks; contracting bids lost in the mail; and
                                     generally, lost and delayed mail (sometimes even taking
                                     2 weeks within the state).

                                     The Postal Service considers mail delayed when it is not
                                     processed or dispatched to meet its scheduled delivery
                                     date. Under normal circumstances, First-Class Mail should
                                     reach its destination anywhere within the continental U.S.
                                     within 3 business days.

                                     The Albuquerque District conducted a Function 4 Review1
                                     of mail processing operations in Las Cruces over a 7-day
                                     period (May 17 through 23, 2005). The review identified
                                     59 points for improvement, 42 of which concerned delayed
                                     mail. The review team observed delayed mail at both the

1
    A Function 4 Review is a review to improve the effectiveness of management and labor activities at the unit level.


                                                             2
Las Cruces, New Mexico Delayed Mail                                                DR-MA-06-001



                             carrier annex and main post office each day of the review
                             period. In one instance, they observed mail dating back as
                             far as October 2004. The review concluded delayed mail
                             was due in part to inadequate staffing levels and
                             inadequately trained staff to accomplish the workload. The
                             review recommended managing workhours to workload,
                             training supervisors to work preferred mail, working with the
                             processing plant to improve mailflow, and reviewing staffing
                             levels.

Objective, Scope, and        Our overall objective was to evaluate the allegations of
Methodology                  delayed mail in Las Cruces and to determine whether
                             management was taking action to correct the situation. To
                             accomplish our objective, we visited postal facilities in
                             Las Cruces, observed mail delivery preparation and
                             operations practices at the main post office and the carrier
                             annex, reviewed pertinent documentation and held
                             discussions with unit and district officials, and attended a
                             town hall meeting of city officials and customers. Because
                             this was a limited scope review to verify the delayed mail
                             allegation and actions taken by management to correct the
                             problem, we relied primarily on observations, review of
                             available documentation, and discussions with management
                             to draw our conclusions. We also did not conduct tests of
                             internal controls or rely on computer-generated data to
                             support our report.

                             We conducted this review from December 2005 through
                             June 2006 in accordance with the President’s Council on
                             Integrity and Efficiency, Quality Standards for Inspections.
                             We discussed our observations and conclusions with
                             management officials and included their comments where
                             appropriate.

Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                             objective of this review.

Delayed Mail                 Delayed mail existed during the time of our review in
                             December 2005 at the Las Cruces Carrier Annex and the
                             Main Post Office, causing customer complaints.
                             Management had not taken timely action to correct the
                             situation. This continuing problem was the result of turnover
                             of district management staff, insufficient facility staffing, and
                             untimely response to recommendations in a management


                                                3
Las Cruces, New Mexico Delayed Mail                                                                      DR-MA-06-001



                                   review. District officials addressed the congressional inquiry
                                   and corrective actions associated with delayed mail issues.

Las Cruces Carrier                 During our visit to the carrier annex on December 13, 2005,
Annex                              we observed mail that was delayed at least 1 day. For
                                   example, we found Priority and First-Class Mail on the
                                   annex dock dispatched after the critical period (8:00 a.m.)
                                   for processing and delivery on that day. We also observed
                                   tubs of bulk business mail tagged to be delivered no later
                                   than Wednesday; however, the mail was still in the facility
                                   as of 12:30 p.m. Wednesday.

                                   We identified similar conditions on December 14, 2005.
                                   The station manager stated that on a daily basis, the carrier
                                   annex received 15 to 30 feet of Delivery Point Sequenced2
                                   rejected mail from the plant that employees had to manually
                                   sort. The station manager further stated that the volume of
                                   mail requiring manual sorting, coupled with the lack of
                                   adequate staff, made it difficult to process the mail in time
                                   for carrier deliveries.

Las Cruces Main Post               We observed mail processing at the main post office on
Office                             December 14, 2005, during tour 33 — the peak of the
                                   holiday season. We observed what seemed to be a heavy
                                   mail volume and questioned whether management had
                                   hired additional employees to help with the heavier mail
                                   volume. The supervisor acknowledged this was an ongoing
                                   problem and stated tour 3 had 19 employees 2 years ago,
                                   but now had only 12. He also estimated that the main post
                                   office was processing close to 63 percent more mail than it
                                   did 2 years ago.4

                                   Additionally, the supervisor stated the district did not replace
                                   a “flats” sorter machine because they believed flats could be
                                   better handled at the processing plant. As a result,
                                   employees manually sorted flats arriving at the main post
                                   office.




2
  Delivery Point Sequencing is the process of getting barcoded mail into the carrier’s Line of Travel so the carrier can
deliver it without manual sorting before going to the street.
3
  Tour 3 is from 4:00 p.m. to 1:00 a.m. Outgoing mail is processed on this tour.
4
  Per district management, Las Cruces had 2,000 new residents during calendar year 2005.


                                                           4
Las Cruces, New Mexico Delayed Mail                                                DR-MA-06-001




                             The OIG noted that the district’s Function 4 Review
                             mentioned both staffing and equipment issues as areas
                             needing improvement.

Albuquerque District         The Albuquerque District manager and the Las Cruces
Management                   manager, Post Office Operations, had been in place since
                             August 2005. However, they had not corrected the delayed
                             mail problems identified in the May 2005 Function 4 Review.
                             According to the district manager, staff at the district level
                             had been constantly changing and continuity of information,
                             such as that reported in the Function 4 Review, was not
                             always communicated to new management staff. In
                             addition, management stated they were not aware of major
                             complaints with delayed mail at Las Cruces until receipt of
                             the November 2005 congressional inquiry, as they lacked
                             an effective system to monitor complaints and identify
                             trends in the district.

                             District officials stated there were two main issues causing
                             mail delays in Las Cruces — mailflow and staffing. The
                             district manager informed us they were taking a number of
                             actions to correct the problem. Specifically, the district was
                             in the process of updating their agreement with the
                             Albuquerque Processing Plant, which should correct the
                             majority of the mail sorting problem. Additionally, the district
                             requested that the El Paso Processing Plant use larger
                             trucks to transport mail to the Las Cruces facilities to
                             ensure timely receipt. Finally, the district planned to hire
                             eight additional employees to address staffing issues.

                             District officials also informed us the Southwest Area
                             established a third-party contractor to evaluate mail
                             processing in Las Cruces to isolate other potential issues
                             they need to address.

Town Hall Meetings           City officials voiced complaints about delayed mail and
with City Officials and      untimely response to customers’ complaints. Specifically,
Customers                    we attended a town hall meeting where the Las Cruces City
                             manager and other mailers highlighted numerous mail
                             delivery problems. The Las Cruces City manager discussed
                             instances where mail took as long as 6 days to get to a Las
                             Cruces address from a Las Cruces Post Office. City Council
                             members also expressed concerns that people were
                             experiencing problems when calling the post office with


                                               5
Las Cruces, New Mexico Delayed Mail                                                               DR-MA-06-001



                                 complaints. Customers waited 10 minutes to talk to
                                 supervisors only to have calls disconnected with no
                                 return phone calls.

                                 The Las Cruces postmaster and the Albuquerque
                                 district manager of Post Office Operations attended
                                 the town hall meeting. They addressed customers’
                                 complaints5 and provided information on operational
                                 changes in mail processing that have addressed, or
                                 will address, delayed mail delivery.

Suggestion                       We suggest the acting manager, Albuquerque District:

                                     1. Establish procedures to track and monitor the
                                        implementation of recommendations from
                                        management reviews.

Management’s                     Management agreed with the finding and suggestion.
Comments                         Management stated the district established a procedure to
                                 track and monitor the implementation of recommendations
                                 from management reviews on February 28, 2006.
                                 Management further stated that the district department that
                                 conducted the initial review owns the process. Management
                                 also stated each department will conduct follow-up reviews
                                 to determine if implementation of the necessary corrections
                                 to the operations occurred. In addition, management stated
                                 they will send follow-up reports to the Post Office Operations
                                 manager and copies to the district manager.

Suggestion                           2. Direct all managers to evaluate and investigate
                                        customer complaints timely, in accordance with
                                        Management Instruction PO-160-2002-1, Complaint
                                        Resolution and Proper Use of Notice 4314-C, We
                                        Want To Know.

Management’s                     Management agreed with the finding and suggestion.
Comments                         Management directed all managers/postmasters on
                                 January 5, 2006, to investigate and respond to customer



5
  Postal Service policy states that management should review and respond to customer complaints and maintain a
log of those complaints (see Management Instruction PO-160-2002-1, Complaint Resolution and Proper Use of
Notice 4314-C, We Want To Know, dated April 26, 2002).



                                                        6
Las Cruces, New Mexico Delayed Mail                                              DR-MA-06-001




                             complaints in a timely manner. Management also
                             established a central tracking point for congressional
                             inquiries at the same time.

Evaluation of                Management’s comments are responsive to our findings and
Management’s                 suggestions 1 and 2 and their actions taken should correct
Comments                     the issues identified in the report.

                             We appreciate the cooperation and courtesies provided by
                             your staff during the review. If you have any questions or
                             need additional information, please contact Rita Oliver,
                             director, Delivery and Retail, or me at (703) 248-2300.




 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

cc: William P. Galligan
    Ellis A. Burgoyne
    Steven R. Phelps




                                               7
Las Cruces, New Mexico Delayed Mail                  DR-MA-06-001



                   APPENDIX. MANAGEMENT’S COMMENTS




                                      8
Las Cruces, New Mexico Delayed Mail       DR-MA-06-001




                                      9
